April 22, 2011

DEBORAH M. GIANNONI-JACKSON
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT: Management Advisory – Retirement for U.S. Postal Service Employees on
         Workers’ Compensation (Report Number HR-MA-11-001)

This report presents the results of our review of Retirement for U.S. Postal Service
Employees on Workers’ Compensation (Project Number 10YR001SA001). Our
objective was to determine the monetary impact to the Postal Service if the Federal
Employees Compensation Act (FECA) was reformed to reduce compensation benefits
for disabled employees on the periodic roll when they reach retirement age. This review
was self-initiated as a result of the Postal Service’s rising workers’ compensation cost
and long term liabilities. The review addresses financial risk. See Appendix A for
additional information about this review.

Postal Service employees are covered by FECA. Enacted in 1916, FECA provides four
basic types of benefits to civilian federal employees who sustain injuries including
occupational disease as a result of their employment. FECA also provides monetary
benefits to qualified survivors if a work-related injury or disease causes an employee’s
death. FECA compensation benefits are tax-free. The base rate is 66 2/3 percent of the
injured employees salary if there are no dependents or 75 percent if there is at least one
dependent.1 FECA does not have age or time limits on benefits. Benefits are payable as
long as a physician certifies the condition or disability continues.

Disabled retirement-eligible employees have a choice between FECA benefits and
federal retirement benefits. Most employees choose FECA because it results in a higher
payment and FECA benefits are tax-free. However, employees receiving FECA
compensation benefits generally do not earn years-of-service credits, and the Postal
Service does not contribute to their retirement, thrift savings plan, or Social Security
accounts. Employees can switch between the two choices if it results in a benefit to the
employee.

The Department of Labor (DOL) Office of Workers’ Compensation Programs (OWCP)
administers FECA and makes all decisions regarding injured workers’ eligibility for
benefits. DOL provides direct compensation to providers, claimants, and beneficiaries.
In testimony before congress, the director of OWCP has expressed concerns with
FECA providing disincentives for employees to return to work. As a result, DOL is

1
    The wage loss component of the FECA has not been significantly amended since 1974.
Retirement for U.S. Postal Service                                                                    HR-MA-11-001
 Employees on Workers’ Compensation


proposing the following amendments to FECA2 regarding disabilities occurring on or
after the date of enactment:

    Changing the basic rate of compensation for total disability to 70 percent of the
    employee’s monthly pay.

    Converting benefits to 50 percent of monthly pay when the employee reaches
    retirement age,3 or 1 year after the employee begins receiving compensation,
    whichever is later.

Additionally, Senator Susan Collins introduced related legislation4 to reform FECA,
requiring disabled employees receiving workers’ compensation to retire under their
applicable retirement program when they reach full-retirement age, as defined by the
Social Security Act. See Appendix B for our review of proposed legislative reforms to
FECA.

Currently, the Postal Service reimburses DOL for all workers’ compensation claims and
pays an administrative fee to DOL for administering the program for Postal Service
employees. The Postal Service’s workers’ compensation costs for chargeback year5
2010 were over $1 billion, and administrative fees were approximately $61 million.

Conclusion

If FECA were reformed to convert compensation benefits to 50 percent of the
employee’s monthly pay when they reach retirement age, the Postal Service can save
approximately $37.8 million annually or $378 million over 10 years.6 See Appendix C for
impact.

Retirement Age Employees Receiving Workers’ Compensation Benefits

We determined there were approximately 14,9007 employees on the periodic roll,8
which included 8,336 ages 55 and over, 2,798 ages 65 and over, 705 ages 80 and over,
and three that were age 98. Additionally, 82 percent (2,290 of 2,798) of the employees
on the periodic roll age 65 and over were classified as having no reemployment
potential or permanent or prolonged disabilities. However, they continue to receive
workers’ compensation benefits, which are more than what they would generally receive
from federal retirement benefits.


2
  DOL’s draft proposal titled Federal Injured Employees’ Reemployment Act of 2010.
3
  The bill uses retirement age as defined by the Social Security Administration, which is between the ages of 65 and
67.
4
  Federal Employees’ Compensation Reform Act of 2011, dated February 2, 2011.
5
  The OWCP bills employing agencies for work related injuries and death benefits paid to employees on their behalf,
from July 1 through June 30 each year. This period is considered the chargeback year.
6
  The cost savings includes current employees on the periodic rolls and projections for new claimants.
7
  Figure as of September 2010.
8
  Employees receiving workers compensation benefits who have disabilities that are expected to be permanent or
prolonged (60-90 days).


                                                          2
Retirement for U.S. Postal Service                                            HR-MA-11-001
 Employees on Workers’ Compensation


Although not intended, worker’s compensation has become a retirement system for
many disabled retirement age Postal Service employees, resulting in loss of productivity
and higher workers’ compensation costs. Generally, federal employees are eligible for
retirement with full Social Security benefits between the ages of 65 and 67 depending
on the year of birth. See Appendix D for Social Security retirement ages. However, as
currently structured, FECA does not have age or time limits on workers’ compensation
benefits, and employees can choose between tax–free workers’ compensation benefits
and taxable federal retirement benefits. See Appendix E for a summary of federal
retirement system benefits.

The disparity between retirement benefits and workers’ compensation benefits provide
incentives for employees to remain on the periodic roll for life. Therefore, FECA reform
to reduce compensation benefits for retirement age employees is needed, and would
result in significant cost savings to the Postal Service.

We recommend the vice president, Employee Resource Management:

1. Continue to pursue legislative change to reform the Federal Employees’
   Compensation Act to reduce workers’ compensation benefits for retirement age
   employees.

Management’s Comments

Management indicated agreement with the finding, recommendation, and monetary
impact and stated the report supports actions already underway through Employee
Resource Management to support legislative changes to the FECA. Additionally,
management stated the findings of the audit will substantially reduce the Postal
Service’s future liabilities associated with on–the-job injuries. Management stated that
these matters must be addressed through Congress; therefore they cannot provide a
firm implementation date. See Appendix G for management’s comments in their
entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation and the planned corrective actions should
resolve the issues identified in the report.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                            3
Retirement for U.S. Postal Service                                         HR-MA-11-001
 Employees on Workers’ Compensation


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at 703-248-2100.




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Anthony J. Vegliante
    Corporate Audit and Response Management




                                           4
Retirement for U.S. Postal Service                                             HR-MA-11-001
 Employees on Workers’ Compensation




                      APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Enacted in 1916, FECA provides comprehensive federal workers’ compensation
coverage to civilian federal employees who sustain injuries as a result of their
employment. The four types of benefits provided are medical, compensation, death, and
nursing and rehabilitation services. FECA also provides compensation benefits to
qualified survivors if a work-related injury or disease causes an employee’s death.

As one of the largest workers’ compensation systems in the world, FECA covers
2.7 million federal employees. Its fundamental purpose is to provide compensation for
wage loss and medical care, facilitate return to work for employees who have recovered
from their injuries, and pay benefits to survivors. Compensation benefits are tax-free,
and the base rate is 66 2/3 percent of the injured employees salary or 75 percent if
there is a least one dependent. More than 70 percent of FECA claimants are paid at the
75 percent rate. The Postal Service is the largest FECA participant, paying more than
$1 billion in benefits and $61 million in administrative fees annually. See Appendix F for
Postal Service’s workers’ compensation costs.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine the monetary impact to the Postal Service if the FECA
was reformed to reduce compensation benefits for disabled employees on the periodic
roll when they reach retirement age.

We reviewed the Postal Service’s worker’s compensation program and identified
opportunities to reduce cost. To accomplish our objective, we interviewed Postal
Service officials to gain an understanding of their roles and responsibilities for the
workers’ compensation program. We reviewed applicable policies and procedures.

We also identified proposed legislative changes regarding FECA, to include the Federal
Employees Compensation Reform Act of 2011, proposed by Senator Susan Collins,
and DOL’s draft proposal Federal Injured Employees Reemployment Act of 2010.

We analyzed workers’ compensation data from the Postal Service Injury Compensation
Performance Analysis System (ICPAS) for Postal Service employees on the periodic roll
as of September 2010. We assessed the impact to the Postal Service if FECA were
reformed to convert compensation benefits to 50 percent for retirement age employees
on the periodic roll.

We conducted this review from December 2010 through April 2011 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for




                                             5
Retirement for U.S. Postal Service                                             HR-MA-11-001
 Employees on Workers’ Compensation


Inspection and Evaluation. We discussed our observations and conclusions with
management on March 31, 2011, and included their comments where appropriate.

We assessed the reliability of data from the ICPAS by performing electronic testing for
obvious errors in accuracy and completeness. When we found anomalies in the data,
we discussed these with Postal Service officials to determine how to handle the data in
our analysis. We determined that the data was sufficiently reliable for the purpose of this
report.




                                             6
      Retirement for U.S. Postal Service                                                          HR-MA-11-001
       Employees on Workers’ Compensation



      PRIOR AUDIT COVERAGE

                                              Final
                        Report               Report
  Report Title          Number                Date                       Report Results
Workers’              FT-MA-11-002          12/23/2010       OIG found the Postal Service workers’
Compensation                                                 compensation liability was significantly
Liability Estimate                                           larger than that of comparable private sector
                                                             companies. Management could improve the
                                                             workers’ compensation model by ensuring
                                                             that personnel who develop the liability
                                                             estimate better understand the model,
                                                             including the assumptions made, the
                                                             analyses conducted, and the rationale for
                                                             the methods used, The OIG provided
                                                             3 recommendations regarding
                                                             improvements to the model. Management
                                                             agreed to consider further alternatives for
                                                             calculating the liability.
OWCP’s               04-09-004-04-431       9/29/2009        DOL OIG found that OWCP needs to
Jacksonville and                                             improve its process for monitoring claimants
New York District                                            in the “re-employment status
Offices Need to                                              not yet determined.” In 11 percent (13 of
Improve Monitoring                                           119) of the cases, claims examiners did not
of Re-employment                                             perform critical required activities such as
Status of                                                    referring claimants for nursing or vocational
Claimants                                                    rehabilitation services. Also, claims
                                                             examiners did not make necessary referrals
                                                             or conduct proper follow-up for medical
                                                             examinations in 45 percent (54 of 119) of
                                                             the cases reviewed. Untimely case
                                                             management was attributed to insufficient
                                                             supervisory oversight. Management agreed
                                                             to both recommendations to improve case
                                                             management.
Federal Workers’       GAO-08-284            2/2008          The GAO found OWCP lacked an effective
Compensation:                                                strategy for managing the risks of improper
Better Data and                                              payments because it has not emphasized
Management                                                   preventing, detecting, and recovering
Strategies Would                                             improper payments or collected information
Strengthen Efforts                                           needed to assess the program’s risk of
to Prevent and                                               improper payments. None of the agency’s
Address Improper                                             performance goals for the FECA program
Payments                                                     addressed improper payments. GAO issued
                                                             four recommendations to strengthen OWCP
                                                             efforts to prevent and address improper
                                                             FECA payments. DOL disagreed with many
                                                             of GAO’s findings and conclusions;
                                                             however, the agency described several
                                                             actions being taken that were consistent
                                                             with the recommendations.




                                                         7
Retirement for U.S. Postal Service                                            HR-MA-11-001
 Employees on Workers’ Compensation



                 APPENDIX B: PROPOSED LEGISLATIVE REFORMS

To address concerns that workers’ compensation benefits provide disincentives for
employees on the periodic rolls to return to productive work, the DOL has drafted a
proposal to amend FECA. The proposal titled Federal Injured Employees’
Reemployment Act of 2010 includes the following amendments regarding disabilities
occurring on or after the date of enactment:

   Change the basic rate of compensation for total disability to 70 percent of the
   employee’s monthly pay.

   Convert benefits to 50 percent of monthly pay when the employee reaches
   retirement age, or 1 year after the employee begins receiving compensation
   whichever is later.

Additionally, Senator Susan Collins introduced a bill titled Federal Employees’
Compensation Reform Act of 2011, dated February 2, 2011, requiring disabled
employees receiving workers’ compensation to retire under their applicable retirement
program when they reach retirement age and are eligible for an annuity under the Civil
Service Retirement System or the Federal Employees Retirement System.

We reviewed DOL’s draft proposal which would convert compensation benefits to 50
percent of the employees’ monthly pay when they reach retirement age. However, the
proposal is only applicable to new injuries occurring on or after the date of enactment.
Therefore, we believe if enacted, this proposal would create missed opportunities for the
Postal Service and federal government to realize significant cost savings regarding
employees currently on the periodic rolls.

We also reviewed the Federal Employees’ Compensation Reform Act of 2011.
However, we could not assess the impact to the Postal Service because we were
unable to ascertain what provisions would be made to cover years-of-service credits
and employer contributions which had not been made while the employee was receiving
workers’ compensation.




                                            8
Retirement for U.S. Postal Service                                            HR-MA-11-001
 Employees on Workers’ Compensation



   APPENDIX C: MONETARY BENEFITS METHODOLOGY AND CALCULATIONS

The Postal Service could save $378 million over the next 10 years if FECA were
reformed to convert compensation benefits to 50 percent for totally disabled employees
on the periodic roll when they reach retirement age. To determine the potential cost
savings, we analyzed workers’ compensation data from the Postal Service ICPAS for
employees on the periodic roll as of September 2010.

To identify the universe of recipients that were at retirement age or would reach
retirement age within the next 10 years, we determined the full retirement age and life
expectancy for each recipient.

To determine the cost saving to the Postal Service, we performed our monetary
calculations in two separate parts:

1. We calculated the savings for all OWCP recipients on the periodic roll as of
   September 2010 that will reach full retirement age sometime within the next
   10 years.

2. We calculated the savings for the number of individuals we estimate will come onto
   the periodic roll over each of the next 10 years, and who will also reach full
   retirement age sometime within the next 10 years.

To determine the cost savings, we prepared a 10 year discounted cash flow and used
Postal Service labor escalation rate of 1.7 percent per year. We used a discount rate of
3.875 percent, which is the Postal Service’s current cost of borrowing.

We estimate $377,936,529 in funds put to better use if FECA were reformed to convert
compensation benefits to 50 percent of the employee’s monthly pay when they reach
retirement age.




                                            9
Retirement for U.S. Postal Service                                 HR-MA-11-001
 Employees on Workers’ Compensation



                APPENDIX D: SOCIAL SECURITY RETIREMENT AGES


                              SOCIAL SECURITY ACT
                              FULL RETIREMENT AGE

                     YEAR of BIRTH           FULL RETIREMENT AGE

                      1937 or earlier                  65
                          1938                   65 and 2 months
                          1939                   65 and 4 months
                          1940                   65 and 6 months
                          1941                   65 and 8 months
                          1942                  65 and 10 months
                       1943-1954                       66
                          1955                   66 and 2 months
                          1956                   66 and 4 months
                          1957                   66 and 6 months
                          1958                   66 and 8 months
                          1959                  66 and 10 months
                      1960 and later                   67




                                        10
Retirement for U.S. Postal Service                                                           HR-MA-11-001
 Employees on Workers’ Compensation



                 APPENDIX E: SUMMARY OF RETIREMENT SYSTEMS


                                     DISABILITY RETIREMENT

       Civil Service Retirement System                   Federal Employees Retirement System
                    (CSRS)                                             (FERS)
                                              ELIGIBILITY

       Employee’s disability expected to last for              Employee disability expected to last for
       1 year.                                                 1 year.

       Employee must have 5 years of creditable                Employee must have 18 months of
       service.                                                creditable service.

                                               BENEFITS

       Employee receives benefits equal to the             First 12 months:
       projected benefit at age 60, or 40 percent
       of the employee’s high-3 average salary,                Employee receives 60 percent of high-3
       whichever is less                                       average pay minus 100 percent of Social
                                                               Security benefit for any month, in which
                                                               they were entitled.

                                                           After first 12 months:

                                                               Employee receives 40 percent of high-3
                                                               average pay minus 60 percent of Social
                                                               Security benefit for any month, in which
                                                               they were entitled.

                                  VOLUNTARY RETIREMENT
       Civil Service Retirement System            Federal Employees Retirement System
                    (CSRS)                                      (FERS)
                                       ELIGIBILITY

       Age 55 and 30 years of service.                         Minimum retirement age and 30 years of
                                                               service.

       Age 60 and 20 years of service.                         Age 60 and 20 years of service.

       Age 62 and 5 years of service                           Age 62 and 5 years of service.

                                               BENEFITS

       Employee benefit is based on high-3                     Employee benefit is based on high-3
       average pay over any 3 consecutive years                average pay over and 3 consecutive years
       of creditable service plus credit for unused            of creditable service.
       sick leave.




                                                      11
Retirement for U.S. Postal Service                                                                    HR-MA-11-001
 Employees on Workers’ Compensation



         APPENDIX F: POSTAL SERVICE WORKERS’ COMPENSATION COST


                  Postal Service Workers’ Compensation Cost9
    Chargeback Year    DOL Charge        Administrative Fees      Total
         2008          $958,858,402         $52,879,796      $1,011,738,199
         2009         $1,051,297,408        $55,512,947      $1,106,810,355
         2010         $1,083,656,736        $61,457,855      $1,145,114,591




9
 Figures do not include fees paid for Postal Office Department injuries occurring before July 1, 1971, which were
about $52 million for the combined chargeback years.


                                                         12
Retirement for U.S. Postal Service                       HR-MA-11-001
 Employees on Workers’ Compensation



                     APPENDIX G: MANAGEMENT’S COMMENTS




                                      13
Retirement for U.S. Postal Service         HR-MA-11-001
 Employees on Workers’ Compensation




                                      14
